November 2011 Monthly Update | The U.S. Small Business Administration | SBA.gov
Skip to main content
Jump to Main Content
An Official Website of the United States Government
Translate
LoginSBA LoginUsing valid employee GLS loginRegister
Search form
Search SBA
Contact SBA
Contacto (en español)
Newsroom
Community
For Lenders
Email Updates
Blogs
Starting & ManagingStarting a BusinessThinking About Starting
Create Your Business Plan
Choose Your Business Structure
Register Your Business
Obtain Business Licenses
Learn About Business Laws
Finance Your Business
Explore Loans, Grants and Funding
Filing & Paying Taxes
Choosing Your Business Location & Equipment
Hire & Retain Employees
Managing a BusinessLeading Your Company
Growing Your Business
Exporting
Running a Business
Business Law & Regulations
Getting Out
Business Guides by Industry
Local Resources
Health Care
Forms
Loans & GrantsSmall Business LoansWhat SBA Offers to Help Small Businesses Grow
SBA Loan Programs
How to Prepare Your Loan Application
Find Small Business Loans
Surety Bonds
SBIC Program
GrantsFacts About Government Grants
Research Grants for Small Businesses
Find Grants
Other Financial AssistanceVenture Capital
Find Loans, Grants & Other Assistance
ContractingGetting StartedAm I a Small Business?
SBA's Role in Government Contracting
Identifying Industry Codes
Small Business Size Standards
D-U-N-S Number
Register for Government Contracting
Contracting Support for Small BusinessesDetermining Business Size
8(a) Business Development
HUBZone Program
Service-Disabled Veterans
Small Disadvantaged Businesses
Women-Owned Small Businesses
Certificates of Competency
Size Protests
Natural Resources Assistance
Commercial Market Representatives
Report Fraud
Understanding the Federal MaketplaceContracting Resources for Small Businesses
Contract Responsibilities
Contracting Regulations for Small Businesses
Sub-Contracting
Small Business Utilization Scorecards
For Contracting OfficialsHUBZone
Non-Manufacturer Waivers
Report Fraud, Waste & Abuse
Protests
OSDBU
Small Business Goaling
Federal Aquisition Regulations (FAR)
Certificate of Competency Program
Procurement Center Representatives
Government Contracting Field Staff Directory
Service Contract Inventory
Partnership Agreements
Goaling Program
Interagency Task Force on Federal Contracting Opportunities for Small Businesses
Learning Center
Local AssistanceSBA District Offices
Small Business Development Centers
U.S. Export Assistance Centers
Certified Development Companies
Procurement & Technical Assistance Centers
SCORE Chapters
Women's Business Centers
Veteran's Business Outreach Centers
Disaster Field Offices
SBA Regional Offices
About SBAWhat We DoMission
History
Authority
Resource Guides
SBA TeamThe SBA Administrator
SBA Leadership
Jobs at SBA
SBA LocationsHeadquarters Offices
Regional Offices
District Offices
Disaster Offices
SBA NewsroomNews & Press Releases
Disaster Press Releases
Speeches
Congressional Testimony
Weekly Lending Report
Media & Press Contacts
Regional & Local Media
Fiscal Year 2012 Budget Summary
Press Release Archive
SBA InitiativesSBA Emerging Leaders Initiative
Clusters Initiative
7(j) Management and Technical Assistance Services Program
Small Business Teaming Pilot Program
Small Business Jobs Act of 2010
Startup America
Council on Underserved Communities (CUC)
Intermediary Lending Pilot
Greening SBA
Small Business Saturday 2013
SBA PerformanceStrategic Planning
Performance & Budget
Open Government
SBA Data Store
Policy & Regulations
Oversight & AdvocacyInspector General
Advocacy
Hearings & Appeals
Ombudsman
SBA.gov » Office of Inspector General » Newsroom » Recent Investigative & Audit Actions » November 2011 Monthly Update
Inspector General
About Us
OIG Directory
NewsroomEmail Alerts
Press Releases
Recent Investigative & Audit Actions
Congressional Testimony
Top Management Challenges
Semi-Annual Reports to Congress
Hotline
Whistleblower Protection
Searchable List of OIG Reports
Audit Reports by Program Area or TopicBusiness Loans and Lender Oversight
Disaster Loans
Surety Bonds
SBICs
Government Contracting and Business Development
Entrepreneurial Development
Agency Management
External Quality Control Reviews of the OIG
Recovery OversightActivities
Plans
Reports
OIG Reports November 2011 Monthly Update
Date Issued:
Wednesday, December 7, 2011
Report Number:
November 2011
SUMMARY:  The following details OIG activities for the month of November 2011 as they relate to:  Business Loans, Disaster Loans, Government Contracting & Business Development, and Agency Management.
Business Loans
Maryland Investment Firm and Three Others Indicted
On November 8, 2011, a capital investment firm and its owners, two brothers, were indicted on one count of conspiracy to commit bank fraud, six counts of bank fraud, one count of aiding and abetting and one count of criminal forfeiture in U.S. District Court, District of Maryland.  An associate was also charged with one count of conspiracy to commit bank fraud and two counts of bank fraud for his part in the scheme.  The indictment, which was unsealed on November 16, 2011, relates to a scheme to fraudulently obtain SBA-guaranteed business loans with resulting losses alleged to be over $37 million.   The investment firm specialized in securing loans for individuals interested in purchasing or refinancing small businesses in the Mid-Atlantic area.  According to the indictment, the three subjects encouraged prospective borrowers to apply for business loans through SBA’s Section 7(a) program using the services of their investment firm.  The indictment alleges that the three submitted SBA loan applications and supporting documentation containing fraudulent personal financial statements, which may have included monthly bank statements, to loan originators and underwriters on behalf of their clients, thereby falsely enhancing the creditworthiness of the borrowers and their businesses.  This is a joint investigation with the Federal Bureau of Investigation (FBI).
Texas Man Pleads Guilty to False Statements
On November 14, 2011, in the Southern District of Texas, a man pled guilty to a superseding Criminal Information filed on the same date, charging him with making false statements. The investigation revealed that the subject submitted a contract to purchase a motel for $2,350,000.  He then conspired with others to create another company as a straw seller in order to artificially inflate the sales price to $2,950,000.  The subject submitted fraudulent documents to the SBA lender in support of this scheme and paid the straw seller $400,000 of the required cash injection outside of closing, of which $308,000 was secretly returned to him prior to closing.  This allowed the subject to apply some of the same funds toward the remaining balance of the cash injection, thereby reducing the out of pocket funds he had to pay in rder to purchase the property.  At closing, the straw seller received approximately $196,000 that was identified as seller’s proceeds.  The $196,000 was then covertly funneled to a company owned by the subject who was the buyer in the transaction.  This is a joint investigation with the FBI.
Three Sentenced in Texas for Loan Scheme
On November 16, 2011, three individuals were sentenced in the Southern District of Texas for their participation in a scheme that involved producing fraudulent loan documents to receive SBA 7(a) guaranteed loans totaling $2,479,000.  All three individuals had previously pled guilty to conspiracy to commit wire fraud.  One defendant was sentenced to 5 years probation, $77,911.76 restitution payable to SBA, and a $100 special assessment.  Another defendant was sentenced to 5 years probation and a $100 special assessment.  The third defendant was sentenced to 5 years probation, $88,001.47 restitution payable to SBA, and a $100 special assessment.  This is a joint investigation with the FBI and the Internal Revenue Service, Criminal Investigations.
Michigan Commercial Loan Broker Sentenced
On November 16, 2011, a Michigan-area commercial loan broker was sentenced to 61 months incarceration, 3 years supervised release, and $8,976,448.77 in restitution to be paid jointly with his coconspirators.  The subject previously pled guilty in U.S. District Court for the Eastern District of Michigan to one count of conspiracy to commit wire fraud.  He and his colleague were previously charged for their involvement in a scheme to falsify equity injections and loan disbursements on Housing and Urban Development (HUD) settlement statements involving twelve SBA-guaranteed loans.  The investigation revealed that the he acted as a broker and recruited “straw buyers” to falsely obtain SBA-guaranteed loans.  This is a joint investigation with the U.S. Secret Service.
Disaster Loans
Mississippi Man Pleads Guilty in Disaster Loan Scheme
On November 4, 2011, a Mississippi man pled guilty in U.S. District Court, Southern District of Mississippi, to a Criminal Information charging him with one count of false statements.  The guilty plea was the result of an investigation that disclosed that he had provided false statements to the SBA to receive benefits.  The subject and his wife, who was also charged, applied for and received a $1 million Disaster Loan to repair business properties located in Mississippi and Louisiana damaged by Hurricane Katrina.  The investigation revealed that they did not use the funds as detailed in the Loan Authorization Agreement.  They submitted fraudulent receipts to the SBA to hide the fact that they used a portion of their $389,923 proceeds to purchase a 43-foot yacht.  This is a joint investigation with the FBI.
Government Contracting & Business Development
Georgia Businessman Indicted on Wire Fraud
On November 8, 2011, the president of a Georgia business was indicted in U.S. District Court, Northern District of Georgia, on 14 counts of wire fraud and one count of major fraud.  The indictment alleges that he  fraudulently used the status of a legitimate service-disabled veteran to obtain government contracts set-aside for Service-Disabled, Veteran-Owned Small Businesses (SDVOSB).  He allegedly established his own business as an SDVOSB company owned by the veteran, then created a joint venture between the legitimate veteran-owned business and his own in order to obtain SDVOSB set-aside contracts.  The joint venture received two contracts totaling over $1 million from the Department of Veterans Affairs (VA) before the SDVOSB status of the joint venture was challenged.  In February 2008, the SBA ruled that neither the joint venture nor president’s business qualified for the program, primarily because of the veteran’s lack of participation in the business.  Despite this ruling, the president continued to operate his firm as an SDVOSB business and received three additional SDVOSB contracts, totaling approximately $1.7 million, after allegedly forging the veteran’s signature on contracts, correspondence and checks and using other means to give the appearance that the veteran ran this business, when, in fact, he did not.  This is a joint investigation with the Department of Veteran’s Affairs OIG, the Department of Agriculture OIG, the United States Army Criminal Investigations Division, and the Department of Homeland Security OIG.
Agency Management
Audit of SBA’s Fiscal Year (FY) 2011 Financial Statements. On November 14, 2011, pursuant to the Chief Financial Officer’s Act of 1990, the Independent Auditors’ Report and accompanying reports on internal control and compliance with laws and regulations were issued for the fiscal year ending September 30, 2010. The audit, which was performed by KPMG LLP under a contract with the OIG, found that SBA’s consolidated financial statements presented fairly, in all material respects, the financial position of SBA as of and for the years ending September 30, 2011 and 2010. The financial statements also presented fairly, in all material respects, SBA’s net costs, changes in net position, budgetary resources, and combined statements of budgetary resources for the years then ended. With respect to internal control, the independent auditors continued to report a significant deficiency related to Information Technology security controls. In addition, KPMG’s test for compliance with certain laws, regulations, contracts, and grant agreements determined that the Agency did not fully comply with the Debt Collection Improvement Act of 1996 because it did not consistently follow Treasury guidelines for referring delinquent debts for collection.
Report on Special-Purpose Financial Statements.
On November 15, 2011, pursuant to Office of Management and Budget (OMB) Circular A-136, Financial Reporting Requirements, and the Treasury Financial Manual, the Independent Auditors’ Report on Special-Purpose Financial Statements was issued by KPMG LLP on SBA’s reclassified balance sheet as of September 2011 and 2010, and the reclassified statements of net costs and changes in net position and Federal trading partner note for the year then ended. The independent auditors reported that the statements, including the Federal trading partner note, presented fairly in all material respects the financial position of SBA as of September 30, 2011 and 2010. Also, the results of operations and the changes in net position for the period then ended were in accordance with generally accepted accounting principles.
Leadership
Peggy E. Gustafson
Inspector General
Peggy E. (Peg) Gustafson was sworn in as SBA Inspector General on October 2, 2009. Ms. Gustafson previously served as General Counsel to Senator Claire McCaskill (D-MO), where she advised the...
1 of 2
next ›
GET EMAIL UPDATES
In Partnership with Business USA
Aid, counsel, assist and protect, insofar as is
possible, the interests of small business concerns.
Sign up for e-mail updates.
Customer Service
About SBA
Contact SBA
Contacto (en español)
Media and Press Relations
SBA Locations
SBA Team
About SBA.gov
Site Map
Privacy Policy
Linking Policy
Accessibility
Disclaimers
Social Media
Data Store
SBA Information
Freedom of Information Act
No Fear Act
Report Fraud, Waste, and Abuse
Initiatives
Plain Language
SBA Performance
Strategic Planning
Performance and Budget
Open Government
Policy and Regulations
Eliminating Fraud, Waste and Abuse
Advocacy & Oversight
Inspector General
Advocacy
Hearings and Appeals
Ombudsman
Tools and Features
Online Training
Create a Business Plan
Find Events
Qualify for Government Contracts
Analyze Your Business
SBA Partners
WhiteHouse.gov
USA.gov
Regulations.gov
BusinessUSA.gov